IN THE SUPREME COURT OF THE UNITED STATES

CERVANTES ORCHARDS & VINEYARDS, LLC, CERVANTES NURSERIES, LLC,
CERVANTES PACKING & STORAGE, LLC, MANCHEGO REAL, LLC, all
Washington limited liability corporations; JOSE G. CERVANTES, individually and
as his separate property; DEAN BROWNING WEBB and SCOTT ERIK
STAFNE, as individuals, Applicants/Appellants,

aay ae

DEERE & COMPANY, a corporation; DEERE CREDIT, INC., a corporation;
JOHN DEERE CAPITAL CORPORATION, a corporation; JOHN DEERE
FINANCIAL, a corporation, FKA FPC FINANCIAL; DEERE CREDIT
SERVICES, INC., a corporation; AMERICAN WEST BANK, a corporation; T-16
MANAGEMENT CO, LTD., a Washington corporation; GARY JOHNSON,
individually and upon behalf of their community property marital estate; LINDA
JOHNSON, individually and upon behalf of their community property marital
estate; ROBERT WYLES, individually and upon behalf of their community
property marital estate; MICHELLE WYLES, individually and upon behalf of
their community property marital estates NW MANAGEMENT REALTY
SERVICES, INC., a Washington corporation, AKA Northwest Farm Management
Company; SKBHC HOLDINGS LLC, a Washington limited liability
corporation, Respondents/ Defendants.

CERTIFICATE OF SERVICE
I, Dean Browning Webb, counsel for Applicants/Appellants, hereby certify that
on this 22nd day of September, 2019, I caused one copy of the Application for
Extension of Time to File Petition for Writ of Certiorari to be mailed via First

Class Mail, to the parties noted below:

 

John S. Devlin, III, Esquire Abraham K. Lorber, Attorney
206-223-7000 206-223-7000

Lane Powell PC Lane Powell PC

Suite 4100 Suite 4100

1420 Fifth Avenue 1420 Fifth Avenue

P.O. Box 91302 P.O. Box 91302

Seattle, WA 98111-9402 Seattle, WA 98111-9402

Attorneys for the Deere Companies

 
 

Jeffrey Robert Simpson, Attorney
509- 575-7501

Talbott-Simpson

308 N. 2nd Street

Yakima, WA 98901

Attorney for American West Bank, NW Management Realty, AKA NW Farm Management

and SKBHC Holdings

 

Brendan V. Monahan, Attorney
509-853-3000

Stokes Lawrence Velikanje Moore &
Shore

120 N. Naches Avenue

Yakima, WA 98901

Attorney for Robert and Michelle Wyles

Aaron D. Goforth, Attorney
509-624-4600

Davidson Backman Medeiros PLLC
601 West Riverside Avenue

Suite 1550

Spokane, WA 99201

Attorney for T-16 Management, Gary and
Linda Johnson

 

 

Scott E. Stafne

360-403-8700

Stafne Law Advocacy & Consulting
239 N Olympic Avenue

Arlington, WA 98223

Pro Se

 

 

I further certify that all parties required to be served have been served.

 

3507 SE 197th Avenue Camas, WA 98607
(258) 686-5111
Ricoman1968@aol.com

Attorney for Applicants/Appellanis

 
